THE LAW OFFICES OF SETH KRETZER
9119 S GESSNER RD; SUITE 105
HOUSTON, TX 77074
TELEPHONE (713) 775-3050
SETH@KRETZERFIRM.COM

TELECOPIER (713) 929-2019
SKYPE: SETH.KRETZER

September 22, 2021
Honorable Scott S. Harris
Clerk of the Court Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

No. 21-5592 (Capital Case), John H. Ramirez v.
Bryan Collier, Executive Director, Texas Department of
Criminal Justice, et al.

Dear Mr. Harris:
Petitioner objects to the State’s introduction of never-filed, new
testimonial evidence created for use in the Court: several affidavits executed
between September 14 and September 20, 2021. This new evidence comes
after the stay decisions from the district court and court of appeals; in neither
court did the State seek to offer such evidence to support its arguments under
RLUIPA, the PLRA, or the equitable principles governing stays and pretrial
injunctive relief.

It now effectively seeks an evidentiary hearing at this

Court, but with no opportunity for petitioner’s counsel to depose, much less
cross-examine, these surprise witnesses. As this Court has reiterated time
and again—including in Cutter v. Wilkinson, a RLUIPA case—this Court is
“mindful that we are a court of review, not of first view.” 544 U.S. 709, n.7
(2005).

This Court should disallow the newly created evidence the State

wants to “lodge.”

Although the State suggests “extraordinary circumstances” warrant
this departure from established procedures on certiorari review in this Court,
the request rings hollow. The State contends there is an “underdeveloped
record” to completely address the issues the Court directed the parties to
brief. But the State has been addressing these very same topics in both
courts below and in its Brief in Opposition. See, e.g., Br. Opp. at 12 (PLRA
exhaustion); id. at 15-22 (RLUIPA substantial-burden analysis); id. at 22-29
(RLUIPA compelling-interest/least-restrictive-means analysis); id. at 31-39
(equitable-relief analysis). This is the first time the State has indicated it
lacks evidence it now views as essential to support the arguments it has
repeatedly made.
The ‘underdevelopment’ the State believes hampers its ability to carry
its burden under RLUIPA, 42 U.S.C. § 2000c–2(b), or its arguments under
the PLRA or the equities, reflects litigation strategy the State chose to
pursue against petitioner. Having already presented arguments in its Brief
in Opposition on every issue the Court directed the parties to address in
merits briefs—and never even hinting that the record precludes meaningful
consideration of these issues, much less requires providing the State a chance
to develop new evidence essential to litigating petitioner’s Free Exercise
claims—the State has waived any argument that the Court should consider
new evidence and permit a one-sided, mini-trial, in which none of the State’s
witnesses are subject to the “crucible of cross-examination.”

Crawford v.

Washington, 541 U.S. 36, 61 (2004). The State can request a continued stay
and a remand the district court, which is the court in which trials belong.
The Court should reject the State’s request to lodge its newly created
testimonial evidence.
Sincerely,
Seth Kretzer

